No.

IN THE
SUPREME COURT OF THE UNITED STATES

NATHANIEL MARCUS GANN

— PETITIONER

(Your Name)
vs.
RALPH DIAZ

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

NATHANIEL MARCUS GANN

(Your Name)
P.O. BOX 96

(#G-64542)

(Address)
CHOWCHILLA, CA 93610

(City, State, Zip Code)
NONE

(Phone Number)

QUESTION(S) PRESENTED

1)

IS THE ADMISSION OF IRRELEVANT OR OVERTLY PREJUDICIAL
EVIDENCE A DUE PROCESS VIOLATION?
(AND IS SUCH A VIOLATION SUFFICIENT TO ISSUE A WRIT OF
HABEAS' CORPUS?)

2)

IS A MIXTURE OF UNCROSS-EXAMINED TESTIMONIAL STATEMENTS
OFFERED FOR TRUTH AND NON-TESTIMONIAL HEARSAY PROHIBITED
BY THE CONFRONTATION CLAUSE?
(AND IS SUCH A

VIOLATION SUFFICIENT TO ISSUE A WRIT OF

HABEAS CORPUS?)

3)

DOES A CONVICTION FOR A CRIME THE DEFENDANT WAS NOT
CHARGED WITH NOR ARRAINED FOR CONSTITUTE A DUE PROCESS
VIOLATION?
(AND IS SUCH A VIOLATION SUFFICIENT TO ISSUE A WRIT OF
HABEAS CORPUS?)

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover, page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
• People-v~. -Sarin,rTNo. 1SCD207862, 'California Superior Court for the
County of San~Diego7-Judgement Entered Jun. 19, 2009
• People v. Gann, No. D055431, California Court of Appeal, Fourth
Appellate District. Judgement Entered Mar. 25, 2011
• Gann v. Beard, No; 12cvl418, U.S. District Court, Southern District
of California. Judgement Entered Nov. 4, 2015 (Sep., 14, 2018)
• Gann v. Beard, No. 17-55316, U.S. Court of Appeals for the Ninth
Circuit. Judgement Entered Jun. 16, 2020

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

Z

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

y
6
a

INDEX TO APPENDICES
APPENDIX A

Decision of U.S. Court of Appeals

APPENDIX B

U.S. Court of Appeals Rehearing Denial

Decision of U.S. District Court
and Findings and Reccomendations of U.S. Magistrate
Judge
APPENDIX D - Decision of State Court of Appeals
APPENDIX C

APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED
CASES
A^A &

STATUTES AND RULES

Ab A e

OTHER

A^

PAGE NUMBER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[jd For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

a

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
P? ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was 4 — 2 0 ~ 2 0
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: 6-16-20__________ , and a copy of the
order denying rehearing appears at Appendix p
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
_ (date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including .___
(date) on
(date)in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

~9

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution Amendments:
Amendment V,
Amendment VI,
Amendment VIII,
Amendment XIII
♦Amendment VI

[Due Process, Double Jeopardy, Self Incriminate]
[Impartial Jury, Informed of Nature of Crime]
[Excessive Bail, Cruel and Unusual Punisment]
[Involuntary Servitude unless duly Convicted]
[Confrontation Clause]

Statutes
28 U.S.C. §2253(c)
28 U.S..C. §2254
Caj

3

STATEMENT OF THE CASE
On 7/19/20 Brae Hansen dialed 911 and stated that her stepfather,
Tim MacNeil had been killed by a masked intruder (burglar).
Brae Hansen was interviewed/interrogated several times by
various police officers/detectives wherein she eventually
confessed to the crime and incriminating her brother Nathaniel
Gann who lived in Arizona^ Brae was charged with special
circumstance murder and later upon extradition Nathaniel
was also charged with special circumstance murder.
The cases were severed and Gann went to trial resulting
in a hung jury on 11/20/2008. At this trial no conspiracy was
charged, argued, or instructed to the jury. The testimonial hearsay
in question was not admitted in that trial, and no surprise witness
with a last minute rape allegation was introduced.
On 12/23/2008 the cases were rejoined by the trial court
despite objection. The second trial began on &428#2009 with the
explicit agreement with the trial court that the jury instructions
would be the same, the same witness list was used (no Kristen
Ullinger) .
Hansen's jury rendered its verdict on 4/9/2009 finging her
guilty of first degree murder with the special circumstance of
lying in wait and that she. was armed with a firearm. Gann's jury
was subjected to a change of jury instructions on the day prior
to deliberations to include conspiracy despite the objections
of counsel stating that if conspiracy was to be alleged that
he would have provided a defense for conspiracy. Also, at approximately

STATEMENT OF THE CASE - 2
the last day of testimony, the prosecution (at 1700 hours the
night before) introduced a surprise withess, Kristen tjllinger,
who unexpectedly shouted that Gann had "Raped" her in high school.
A previously unheard allegation by all parties that prejudiced
the 9 woman jury. Additionally testimonial hearsay was introduced
in this second trial that were intended as evidence for use against
Hansen, and the prosecutions "star witness" Goodman committed
perjury.
After three days and a total of 17 hours of deliberation
with requests regarding Ullingerls surrebuttal testimony (By
Mr. Wood) the jury rendered a verdict of guilty of First Degree
murder, but not guilty of firing a firearm (the murder weapon/
showing conspiracy was thought), and not guilty of the lying
in wait
Hansen was sentenced to life without parole and Gann was
sentenced to 25 years to life. On June 11, 2012 Gann filed his
habeas petition in the Southern District of California raising
seven claims. The District court denied the petition on 11/4/2015.
On 12/15/17 the Ninth Circuit court granted a certificate of
appealability as to two issues and eventually denied the petition
on 4/20/20 and denied the petition for rehearing on 6/16/20,
citing in part that the issues were not squarely adressed by
the Supreme Court.

5

REASONS FOR GRANTING THE PETITION
1)

To outline how in today's world surprise "Rape" allegations

can be used in the criminal justice and civilian systems (irrelevant
and/or Overtly Prejudicial Evidence).
2)

To squarely address whether prosecutors can mix testimonial

and non-testimonial hearsay statements in order to circumvent
the confrontation clause, and determine whether a co-defendants
invocation of their 5th Amendment to not speak at trial can prejudice
other co-defendants.
3)

To address whether the trial court and prosecutor can abuse/

misuse their position to change the jury instructions the day
before deliberation to change the nature of the crime charged,
so as to prevent defense from the previously unknown allegations.
*)

In todays world there is a serious problem with woman alleging

sexual misconduct against men and the men not being able to defend
themselves and/or woman not being heard or believed. In this
case while on murder trial, an ex-girlfriend who had admitted
on the interview tape that all sexual contact was consentual
was permitted to testify as a surprise witness the day before
scheduled closing arguments and shouted a surprise allegation
of "He Raped Me", while the trial court and the prosecutor knew
this was a lie they played on the allegation to portray me as
a violent rapist and used that testimony in closing arguements
to scare the women in the jury. This court needs to make a ruling
on whether this conduct in trial renders the jury partial and
the trial fundamentally unfair, unconstitutional in a word.

6

REASONS FOR GRANTING THE PETITION - 2
The trial court did not strike the testimony, nor grant a mistrial.
The jury asked questions in the form of rereadings of the surrebuttal
witness Josh Wood, showing they were thinking about it.
As to #2, is it proper tpoknowingly mix testimonial hearsay
and non-testimonial hearsay to get what you want said into the
trial when the co-defendant is unavailable for cross examination
because they invoked their 5th amendment right. The mixture should
be disallowed but currently is allowed unless this court squarely
addresses this issue also.
As to #3, I was denied a defense to conspiracy becuase the
prosecution lied about the jury instructions and the trial court
agreed to change the instructions to include conspiracy after
the testimony was concluded. Is it proper for the trial court
and prosecutor to change the nature of the crimes charged after
the evidence has been presented to the jury but before the jury
is given their instructions. This is important because the current
prescident is that the prosecution can change the charges against
an individual after the bulk of the trial and deny them a defence.

7

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

'NathanieilMarcus Gann

Date:

0

